           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION

       SINGLE AUDIT OF THE
         STATE OF ILLINOIS
    FOR THE FISCAL YEAR ENDED
            JUNE 30, 2008

      March 2010 A-77-10-00005




 MANAGEMENT
ADVISORY REPORT
                                  Mission
By conducting independent and objective audits, evaluations and
investigations, we inspire public confidence in the integrity and security of
SSA’s programs and operations and protect them against fraud, waste and
abuse. We provide timely, useful and reliable information and advice to
Administration officials, Congress and the public.

                                 Authority
The Inspector General Act created independent audit and investigative
units, called the Office of Inspector General (OIG). The mission of the OIG,
as spelled out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and
    proposed legislation and regulations relating to agency programs
    and operations.
   Keep the agency head and the Congress fully and currently informed
    of problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the
    reviews.

                                   Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud,
waste and abuse. We commit to integrity and excellence by supporting an
environment that provides a valuable public service while encouraging
employee development and retention and fostering diversity and
innovation.
                                            SOCIAL SECURITY
MEMORANDUM

Date:      March 26, 2010                                                                 Refer To:

To:        Candace Skurnik
           Director
           Audit Management and Liaison Staff

From:      Inspector General

Subject:   Management Advisory Report: Single Audit of the State of Illinois for the Fiscal Year
           Ended June 30, 2008 (A-77-10-00005)


           This report presents the Social Security Administration’s (SSA) portion of the single
           audit of the State of Illinois for the Fiscal Year ended June 30, 2008. Our objective was
           to report internal control weaknesses, noncompliance issues, and unallowable costs
           identified in the single audit to SSA for resolution action.

           KPMG LLP performed the audit. The results of the desk review conducted by the
           Department of Health and Human Services (HHS) concluded that the audit met Federal
           requirements. In reporting the results of the single audit, we relied entirely on the
           internal control and compliance work performed by KPMG LLP and the reviews
           performed by HHS. We conducted our review in accordance with the Quality Standards
           for Inspections issued by the President’s Council on Integrity and Efficiency. 1

           For single audit purposes, the Office of Management and Budget (OMB) assigns
           Federal programs a Catalog of Federal Domestic Assistance (CFDA) number. SSA’s
           Disability Insurance (DI) and Supplemental Security Income (SSI) programs are
           identified by CFDA number 96. SSA is responsible for resolving single audit findings
           reported under this CFDA number.

           The Illinois Disability Determination Services (DDS) performs disability determinations
           under SSA’s DI and SSI programs in accordance with Federal regulations. The DDS is
           reimbursed for 100 percent of allowable costs. The Department of Human Services
           (DHS) is the DDS’ parent agency.




           1
             In January 2009, the President’s Council on Integrity and Efficiency was superseded by the Council of
           the Inspectors General on Integrity and Efficiency, Inspector General Reform Act of 2008, Pub. L. No.
           110-409 § 7, 5 U.S.C. App. 3 § 11.
Page 2 – Candace Skurnik
The single audit reported that DHS did not amend the cost allocation plan (CAP) to
include changes in program administration. Therefore, the methods used to allocate the
cost of the administrative offices to various Federal programs were not approved by
HHS (Attachment A, pages 1 and 2). The corrective action plan indicated DHS
amended the CAP to include the administrative offices (Attachment A, page 2). We
recommend that, upon HHS’ approval of the amended CAP, SSA work with DHS to
ensure that indirect costs charged to the Illinois DDS during State Fiscal Year 2008
were in accordance with the CAP’s approved methodologies.

The single audit also reported weaknesses in the State’s allocation of internal service
fund charges to various Federal programs, including SSA. Specifically,

    1. Procedures were not adequate to identify fund balances that exceeded the
       maximum amount allowable (Attachment A, pages 3 through 5). The corrective
       action plan indicated that adjustments will be made annually and interest will be
       imputed as compensation for any delay in refunding excess balances
       (Attachment A, page 5).

    2. There were no employee personnel activity reports to support the payroll and
       fringe benefit expenditures allocated to Federal programs from the internal
       service funds (Attachment A, pages 6 through 8). The corrective action plan
       indicated the State has changed its documentation procedures (Attachment A,
       page 8).

    3. Costs accumulated in the internal service funds were unallowable (Attachment A,
       pages 9 through 11). The corrective action plan indicated that only allowable
       expenditures are included in cost recovery rates (Attachment A, page 11).

    4. Charges from the internal service funds’ information technology services were
       not in accordance with the State’s Cost Allocation Agreement and OMB Circular
       A-87 (Attachment A, pages 12 through 14). The corrective action plan indicated
       disagreement with the finding (Attachment A, page 14).

We recommended corrective action on these four findings to SSA in a prior report. 2
However, SSA could not provide us with documentation of its corrective action.
Therefore, we repeat the prior year’s recommendation that SSA continue to work with
the Illinois DHS to verify that policies and procedures are in place to ensure charges to
the Illinois DDS from the internal service funds were in accordance with the approved
Cost Allocation Agreement and OMB Circular A-87 requirements.




2
 SSA OIG, Management Advisory Report, Single Audit of the State of Illinois for the Fiscal Year Ended
June 30, 2007 (A-77-09-0000), March 2009.
Page 3 – Candace Skurnik
The single audit also disclosed the State of Illinois did not have an adequate process in
place to permit the timely preparation of a complete and accurate Schedule of
Expenditures of Federal Awards (Attachment B, pages 1 and 2). Although this finding
was not specifically identified to SSA, it may have an impact on DDS operations. I am
bringing this matter to your attention as it represents a potentially serious service
delivery and financial control problem for the Agency.

Please send copies of the final Audit Clearance Document to Shannon Agee. If you
have questions, contact Shannon Agee at (816) 221-0315, extension 1537.




                                                Patrick P. O’Carroll, Jr.

Attachments
Attachment A
Page 1 of 14
Attachment A
Page 2 of 14
Attachment A
Page 3 of 14
Attachment A
Page 4 of 14
Attachment A
Page 5 of 14
Attachment A
Page 6 of 14
Attachment A
Page 7 of 14
Attachment A
Page 8 of 14
Attachment A
Page 9 of 14
Attachment A
Page 10 of 14
Attachment A
Page 11 of 14
Attachment A
Page 12 of 14
Attachment A
Page 13 of 14
Attachment A
Page 14 of 14
Attachment B
  Page 1 of 2
Attachment B
  Page 2 of 2
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
